                             Office of the Inspector General

September 27, 1999

John R. Dyer
Principal Deputy Commissioner
 of Social Security

Acting Inspector General


The Social Security Administration’s Management of Its Freedom of Information Act
Activities (A-13-98-01027)


Attached is a copy of our subject final report. The objective of our audit was to evaluate
the Social Security Administration’s management of its Freedom of Information Act
(FOIA) activities to determine compliance with FOIA and related criteria, and the level of
service provided to the public.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide them within the
next 60 days. If you wish to discuss the final report, please call me or have your staff
contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at
(410) 965-9700.




                                                 James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




     THE SOCIAL SECURITY
       ADMINISTRATION’S
      MANAGEMENT OF ITS
   FREEDOM OF INFORMATION
        ACT ACTIVITIES

    September 1999   A-13-98-01027




AUDIT REPORT

                 E X E C U TI V E S U M M AR Y


OBJECTIVE

The objective of this audit was to evaluate the Social Security Administration’s (SSA)
management of its Freedom of Information Act (FOIA) activities to determine
compliance with FOIA and related criteria, and the level of service provided to the
public.

BACKGROUND

Key FOIA Concepts and Provisions

FOIA, as originally enacted in 1966, established a presumption that records in the
possession of agencies and Departments of the Executive Branch of the Federal
Government are accessible to the public and provided for broad disclosure of those
records. FOIA requires agencies and Departments to establish procedures advising the
public of what records they keep and their availability for examination upon request, and
provides appeal rights if disclosure is denied. It shifts the burden from an individual
requester to establish a right to examine Government records to the Government if
access to records is denied. FOIA also provides that certain records be kept in reading
rooms and made available to the public, contains time limits for providing responses to
requesters of records, and requires an annual report to Congress on FOIA activities.

The Electronic Freedom of Information Act (EFOIA), enacted in 1996, significantly
amended FOIA. Key provisions confirm that FOIA applies to information maintained in
electronic formats, lengthen the time limits for responding to requests, expand the
scope of records available in reading rooms, and require that additional data be
included in each agency’s annual report on FOIA activities.

SSA’s Annual Report on FOIA Activities

FOIA requires each agency to submit an annual report with certain information about its
FOIA administration and statistics. Reports covering periods prior to Fiscal Year
(FY) 1998 were required to be submitted to Congress. EFOIA made extensive changes
to the annual report requirements. Reports beginning with FY 1998 must contain
additional data regarding the FOIA workload and its processing, and be submitted to the
Attorney General of the United States (Attorney General) for inclusion with other agency
FOIA reports on a single World Wide Web site. The Attorney General is required to
notify Congress when this is done. Also, agencies are required to make their reports
available to the public on their respective World Wide Web sites.



                                            i
SSA Reading Rooms

FOIA requires that certain agency records be kept in reading rooms where the public
may access, inspect, and copy any of the material therein. Before EFOIA, reading room
requirements were limited to final opinions, policies and procedures, and staff manuals
affecting the public. EFOIA requires additional types of records be kept in reading
rooms. It also requires that certain reading room records be made available on-line or
in some other type of electronic format.

Organizational Responsibilities for FOIA Activities

The Office of Disclosure Policy (ODP) is responsible for SSA’s overall implementation of
FOIA. Responsibilities include formulation of disclosure policies, processing FOIA
requests, and preparation of SSA’s annual report on FOIA activities. By regulation, only
the Director of ODP (or his/her designee) may determine whether to grant or deny a
request to release any records in SSA’s control and possession.

ODP staff controls and processes all types of FOIA requests, although the most
common type of request (for a copy of a deceased person’s application for a Social
Security number) is generally handled by staff dedicated to this type of workload in the
Office of Central Records Operations (OCRO). In addition to ODP and OCRO staff,
each major component in SSA has the responsibility to appoint a FOIA coordinator to
help retrieve records, provide advice and training, make disclosure recommendations,
and report on component FOIA activities.

RESULTS OF REVIEW

SSA has taken numerous initiatives to improve its administration of FOIA activities.
However, the Agency needs to improve compliance with legal criteria and service to the
public. We found that:

•	 SSA limits the modes by which the public can make a FOIA request. Only mailed
   requests are encouraged while requests via telecommunications are either
   discouraged or not accepted.

•	   SSA’s average time in providing responses containing determinations to requesters
     has exceeded statutory time limits.

•	 SSA, contrary to its Customer Service Pledge, does not provide the public with its
   best estimate of the time it takes to provide replies to FOIA requests.

•	 Annual FOIA reports to Congress prior to the 1998 report did not provide important
   data about FOIA activities, such as backlogs and average processing time. Those
   reports, as well as the 1998 report, were also misleading in that the section on
   compliance with time limits did not provide data regarding compliance with statutory



                                            ii
   time limits. The reports have also failed to provide complete and accurate data
   because not all FOIA requests are recorded and reported.

•	 In general, SSA’s field offices (FO) lack hard copies of at least some materials that
   are required to be available for public access in FOIA reading rooms. Also, in most
   FOs, managers do not have the knowledge or equipment to assist the public in
   accessing the records in SSA’s electronic FOIA reading room.

CONCLUSIONS AND RECOMMENDATIONS

Our review indicates that the modes by which the public may make a FOIA request are
limited, requests are generally not answered within statutory time limits, and the annual
reports to Congress have lacked important, complete and accurate data necessary to
fully reflect SSA’s management of its FOIA activities. Also, advice to the public
regarding estimated reply times should be improved, and some FOIA reading room
materials are not readily available at SSA’s FOs.

We recommend that SSA take the following actions:

•	 Expand the modes by which the public may make a FOIA request and make
   commensurate changes in its regulations and other relevant publications. SSA
   should consider accepting requests made over the phone or computer and provide
   appropriate instruction to its staff and the public on the use of these modes. SSA
   should consider providing a request form on its World Wide Web site which can be
   used by the public to complete and transmit to SSA by postal mail or
   telecommunications.

•	 Make further efforts to comply with the legal requirement to provide a determination
   reply to a FOIA request within 20 business days. Some options to consider are:
   (1) continued periodic use of additional staff to significantly reduce the current
   pending workload, so that new requests can be more quickly addressed under the
   “first-in, first-out” method, (2) remind FOIA coordinators and SSA management that
   they need to monitor the timeliness of FOIA requests submitted to their components,
   and (3) improve controls in SSA’s case control systems in ODP and OCRO, so that
   staff are reminded of important processing dates.

•	 Provide the public with its best estimate of the time SSA takes to provide a
   determination in response to a FOIA request. Estimates would be most informative
   if provided in the FOIA Guide and annual report; and the estimate referred to
   average processing time and type of request. This could easily be accommodated
   by referring to the median times now included in the annual FOIA report.

•	 Provide additional and more accurate data in the annual report to the Attorney
   General on its effort to fully administer FOIA. SSA needs to: (1) instruct all its
   reporting components as to what constitutes a FOIA request, how requests should
   be handled, and how requests should be tracked and counted for the annual report;


                                            iii
•	 and (2) consider revising its report to clearly show its data vis-à-vis the statutory time
   frames to provide the most forthright data on “compliance with time limits.”

•	 Provide a workstation with on-line computer access to the SSA FOIA Web page at
   every FO whereby the public can access, inspect, and copy FOIA reading room
   records. SSA needs to provide training to FO staff, so they are familiar with SSA’s
   FOIA records that are available on-line and can direct the public in the use of the
   technology, either at the SSA office or an off-site location.

AGENCY COMMENTS

SSA agreed with our recommendations to make further efforts to comply with the legal
requirements to provide a determination reply to a FOIA request within 20 business
days, and to provide the public with its best estimate of the time it takes to provide a
determination in response to a FOIA request.

SSA disagreed with our recommendation to expand the modes by which the public may
make a FOIA request, at least until such time as it can provide an appropriate level of
customer service. SSA also disagreed with our recommendation to provide additional
and more accurate data in its annual report on FOIA activities.

SSA will not decide whether to provide a workstation with on-line computer access to
the public in its FOs for FOIA reading room records until it conducts and completes an
assessment of relevant issues. Appendix A includes a copy of the complete text of
SSA's comments.

OIG RESPONSE

We continue to believe that SSA should expand the modes by which the public may
make a FOIA request. This would be consonant with SSA's broad strategic goal "to
deliver customer-responsive, world class service" and strategic objective of increasing
the range of services available over the telephone or electronically. Also, we continue
to believe that SSA would improve its annual reporting of FOIA activities by providing
additional and more accurate data. Respective examples would be reporting the extent
to which it provides replies within statutory time limits, and more accurately capturing all
FOIA-related work performed by the Agency.

We believe SSA's decision to study the issues regarding whether to provide on-line
access to the public in its FOs for FOIA reading room records is reasonable.




                                             iv
                        T AB L E O F C O N T E N T S


                                                                                                                 Page

EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW .......................................................................................... 7


    PUBLIC REQUEST MODES ARE LIMITED...................................................... 7


    •  Regulations Should Be Revisited ................................................................. 7

    •	 FOIA Guide Does Not Provide Alternate Request Modes for Certain

       SSA Records................................................................................................ 8

    • SSA Instructions Do Not Specify Alternate Request Modes ........................ 8

    •	 Limited Request Modes Are Inconsistent with Agency Capability

       and Goals..................................................................................................... 8

    • No Current Plans to Provide New Request Modes ...................................... 9


    REQUESTS ARE GENERALLY NOT ANSWERED WITHIN

    STATUTORY TIME LIMITS............................................................................. 10


    •    Several Factors Contribute to Delays in Agency Responses ..................... 10


    SSA CAN PROVIDE THE PUBLIC WITH BETTER ESTIMATES FOR

    RESPONSE TIMES......................................................................................... 11


    PREVIOUS AND CURRENT ANNUAL REPORTS LACKED BOTH

    IMPORTANT AND ACCURATE DATA............................................................ 12


    FOIA READING ROOMS NEED IMPROVEMENT .......................................... 13


CONCLUSION AND RECOMMENDATIONS....................................................... 15



APPENDICES
APPENDIX A – SSA’S COMMENTS

APPENDIX B – SAMPLING METHODOLOGY

APPENDIX C – FREEDOM OF INFORMATION ACT REPORT TO CONGRESS 1997

APPENDIX D – FREEDOM OF INFORMATION ACT REPORT TO THE ATTORNEY

             GENERAL 1998

APPENDIX E – MAJOR CONTRIBUTORS TO THIS REPORT

APPENDIX F – SSA ORGANIZATIONAL CHART

                               I N TR O D U C TI O N


OBJECTIVE

The objective of this audit was to evaluate the Social Security Administration’s (SSA)
management of its Freedom of Information Act (FOIA) activities to determine
compliance with FOIA and related criteria, and the level of service provided to the
public.

BACKGROUND

Key FOIA Concepts and Provisions

FOIA,1 as originally enacted in 1966, established a presumption that records in the
possession of agencies and Departments of the Executive Branch of the Federal
Government are accessible to the public. FOIA provided for broad disclosure of those
records with its rationale being that an informed public is necessary to keep
Government accountable. Prior to FOIA, there were no statutory guidelines or
procedures to help a person seeking information in Government records, nor any
judicial remedies for those denied access to such records, and the burden was on the
individual to establish a right to examine Government records. The FOIA required
agencies and Departments to establish procedures advising the public of what records
they keep and how they are made available for examination upon request, provided
appeal rights if disclosure is denied, and shifted the burden to the Government if access
to records is denied.

Key provisions of FOIA as amended require each Federal agency to:

1.	 Publish certain material in the Federal Register, such as descriptions of agency
    organizations, functions, substantive rules, statements of general policy, and
    instructions for requesting access to agency records.

2.	 Index certain basic agency records, such as final adjudicative opinions, specific
    agency policy statements, and certain administrative staff manuals that are not
    required to be published in the Federal Register, and make both the index and the
    records available to the public for inspection and copying in what is commonly
    referred to as a “FOIA reading room.”

3. Make all records, with certain exceptions, available to the public upon request.



1
    FOIA was established under title 5, United States Code, 552 (5 U.S.C. § 552).


                                                     1

4.	 Determine whether to furnish requested records and provide the requester with a
    reply within specific time limits.

5.	 Establish a schedule of fees to be charged when members of the public request
    records.

6. Report annually to Congress on FOIA activities.

Key Electronic Freedom of Information Act (EFOIA) Concepts and Provisions

EFOIA,2 enacted in 1996, amended FOIA with respect to records maintained in
electronic formats, the timing of agency responses to FOIA requests, the maintenance
of records in reading rooms, and the data required in each agency’s annual report on
FOIA activities. Significant amendments include:

1. 	 Provisions confirming that FOIA applies to information maintained in electronic
     formats.

2. 	 A provision requiring “reading room” treatment for FOIA-processed records that an
     agency determines has become or is likely to become the subject of a future request
     for substantially the same records.

3. 	 A provision for making available electronically all reading room records created on or
     after November 1, 1996.

4. 	 Provisions that lengthen the time limits for responding to FOIA requests (generally,
     increasing the time limit from 10 business days to 20), establish procedures for
     circumstances in which agencies cannot meet those time limits, and establish
     standards under which FOIA requesters can seek “expedited processing” of their
     requests.

5. 	 A provision requiring agencies to prepare reference material or a guide for public
     dissemination about how to request records from the agency.

6. 	 Provisions which change the required data elements, timing, and methods of
     distribution for the filing of annual FOIA reports effective with the Fiscal Year
     (FY) 1998 annual report.

7. 	 A provision encouraging agencies experiencing difficulties in meeting FOIA’s time
     limits to use “multi-track” processing. Instead of using first-in, first-out processing on
     an overall basis, agencies can use that methodology within each track; thereby,
     providing flexibility to handle relatively simple requests more quickly.



2
  Public Law 104-231, the Electronic Freedom of Information Act Amendments of 1996, amended
5 U.S.C. § 552.


                                                2

SSA’s Estimated Response Times

SSA’s Customer Service Pledge states that SSA will provide the public with its best
estimate needed to reply to a request and explain any delays. Regarding FOIA
requests, SSA advises the public in its Guide to FOIA Requests (FOIA Guide) that it will
try to provide replies within 20 days, but some may take longer. SSA has provided
similar advice for the first time in its annual FOIA report (the 1998 Report). The public is
advised that SSA will try to furnish information as quickly as possible, but past
experience suggests it may take 1 month or longer.

SSA’s Annual Report on FOIA Activities

FOIA requires each agency to produce an annual report containing certain information

about its FOIA administration and statistics. Prior to EFOIA, the annual report

provisions required a calendar year report to Congress on FOIA activities with certain

required data categories. These included: the number of denials; the title or position of

the person responsible for denials; the number of appeals; a copy of agency rules and

fee schedule; the total amount of fees collected; and any other information which

indicated efforts to fully administer this section of the law.


EFOIA made extensive revisions to the annual report requirements. For the first time,

the report was required to include data on the number of requests received, processed,

and pending as of the end of the reporting year, and the median number of days those

requests were pending. Also, the annual report provisions were changed to require

FY data and electronic submission to the Attorney General, for inclusion with other

agency reports in a single World Wide Web site. The first report subject to the new

requirements covers FY 1998 data and was due to the Attorney General on

February 1, 1999. Thereafter, a report to the Attorney General will be due annually on

February 1.


SSA Reading Rooms

FOIA, as enacted in 1966, divided agency records into the following three categories:
(1) records that must be published in the Federal Register, such as substantive rules of
general applicability and descriptions of the agency organization; (2) records that must
be either published and offered for sale, or deposited in agency “reading rooms” where
the public may examine an index of the records, inspect records and copy records of
interest to them; and (3) all other agency records which, unless exempt, must be made
available to the public in response to a request.

Prior to EFOIA amendments, required “reading room” records were limited to final
opinions in adjudicated cases, policy statements not published in the Federal Register,
and staff manuals affecting the public. EFOIA required another type of record be
included in agency reading rooms—records identified in response to a FOIA request
which, because of the nature of the subject matter, the agency determines has become
or is likely to become the subject of a future request for substantially the same records.



                                             3

This requirement is intended to satisfy much of the future demand for those records in a
more efficient manner and deter the need to seek such information with a FOIA request.
Reading room records shall be based not only on the type of record, but by the public’s
interest in the record. This new category of reading room records must be made
available on-line (or in some other electronic form, such as a CD-ROM). Electronic
reading rooms were required to be operational by November 1, 1997, and contain
reading room records created subsequent to November 1, 1996.

SSA regulations3 specify which Agency records are, or will be made, available for
inspection and copying at its field offices (FO). These records include a compilation of
Social Security laws, regulations, rulings, and certain handbooks and manuals. Each
FO must provide a reading room setting for the public to inspect and/or copy these
records.

SSA’s FOIA Process Review Team Report

The FOIA Process Review Team, which began its review in December 1996, was
formed by SSA to develop recommendations on how the FOIA process could be
streamlined to speed up the processing of FOIA requests, make the best use of
employee skills, and provide improved service to the public. The review was designed
to facilitate taking actions to improve the FOIA process in the short - and long - term. At
that time, SSA management was concerned that the backlogs of FOIA requests were
growing and the workload had historically received very little management attention.

The Team issued a report in May 1997, which concluded that the main problems were
process centered and it made 20 recommendations aimed at improving those
processes. The report concluded that, even if the recommendations were implemented,
it might not be adequate to meet the requirements of the law, in view of increasing
workloads and decreasing staff.

Organizational Responsibilities for FOIA Activities

By regulation,4 the public is advised to send a request for disclosure of a record
maintained by SSA to the Director of the Office of Disclosure Policy (ODP). This official
is SSA’s Freedom of Information Officer and is responsible for the Agency’s overall
implementation of FOIA. By regulation,5 only the Director of ODP (or his/her designee)
may determine whether to grant or deny a request to release any record in SSA’s
control and possession (except as otherwise provided by another regulation).

FOIA requests are primarily controlled and processed in two components. ODP
controls and processes all types of FOIA requests. However, the most common type,
which is a request for a copy of a deceased person’s original application for a Social
3
    20 Code of Federal Register (CFR) 402.50 and 402.55.
4
    20 CFR 402.135.
5
    20 CFR 402.125.



                                                   4

Security number, is generally handled by staff dedicated to that workload in the Office of
Central Records Operations (OCRO). The decision to separate this workload was
negotiated and approved by management officials in the respective components.

In addition to ODP and OCRO, each major SSA component has the responsibility to
appoint a FOIA coordinator. The coordinators’ main responsibilities are to retrieve
records which are the subject of a FOIA request, provide advice and training on the
FOIA to component staff, transmit to ODP the component’s recommendations for
disclosure of particular requested documents, and provide justification for any
recommended withholding. FOIA coordinators are also responsible for reporting annual
FOIA activities back to ODP for inclusion in SSA’s annual report.

Both ODP and OCRO have assigned staff to control and process FOIA requests. ODP
staff handles this workload in addition to Privacy Act and Social Security Act related
disclosure requests and Agency disclosure policy decisions and issuances. OCRO staff
generally works full-time on their segment of FOIA cases. FOIA coordinators in the
components usually perform other duties within their components, and FOIA function is
ancillary to their principal duties. Organizationally, ODP has no line of management
authority over OCRO staff performing FOIA related work or over FOIA coordinators in
the various components.

SCOPE AND METHODOLOGY

We reviewed:

•   SSA’s receipt and processing of FOIA requests;

•	 applicable laws and related criteria, Department of Justice guidance and various
   academic articles on FOIA;

•	 SSA’s 1997 Annual Report to Congress on FOIA Activities and the data available
   during our field work compiled for the 1998 report; and

•	 SSA’s implementation of the mandates of FOIA, as amended, and the FOIA Process
   Review Team’s recommendations.

Our methodology included interviewing SSA Headquarters personnel responsible for
the FOIA workload and annual report. We also conducted interviews via telephone of a
stratified, cluster sample of 68 FO managers (see Appendix B). One of the offices in
our population did not meet our sampling criteria. We reviewed the processing of FOIA
requests to determine how they are received, controlled, processed, and how that data
is captured and reported. Our review was limited to overall compliance, processing,
and reporting. It did not include or address the accuracy of SSA’s determinations to
grant or deny the FOIA request; the accuracy of the data in the FOIA data bases; or the
remittance process for FOIA fees.



                                            5

We conducted our audit from May through November 1998 at SSA Headquarters in
Baltimore, Maryland. Subsequent to the end of our field work, SSA filed its FOIA
Annual Report for 1998. Additionally, SSA staff advised us that OCRO implemented
initiatives in 1999 which significantly reduced the FOIA backlogs. We included
observations on these items, so as to acknowledge the most recent and relevant data.
The audit was performed in accordance with generally accepted government auditing
standards.




                                          6

                      R E S U L T S O F R E V I E W


Based on our review, we found that:

•    the modes by which the public may make a FOIA request are limited;

•    requests are generally not answered within the statutory time frames;

•    advice to the public regarding estimated reply times could be improved;

•	 the annual reports to Congress on FOIA activities have lacked important, complete,
   and accurate data necessary to reflect SSA’s management of its FOIA activities; and

•    FOIA reading room materials are not readily available at SSA’s network of FOs.

PUBLIC REQUEST MODES ARE LIMITED

SSA limits the avenues by which the public can make a FOIA request. Only mailed
requests are encouraged while requests via telecommunications are discouraged or not
accepted. These limitations are expressed in or are the result of SSA regulations,
publications, and operating instructions that provide information regarding how and
where the public may submit a FOIA request. These limitations result in diminished
service to the public.

Regulations Should Be Revisited

Each Federal agency is required to issue regulations governing access to its records
under FOIA. The regulations must inform the public where and how to make FOIA
requests. SSA’s regulation6 in effect until July 1998 stated that the public “. . . may
request a record in person, by telephone, or by mail.” While that language was clear,
the regulations7 implied that mail was favored or required by only providing advice as to
where and how to submit a request by postal mail. Similar advice was not provided for
any alternatives. The regulations indicated that the staff of any Social Security office
could help with preparation of the request.8




6
    20 CFR 402.130.
7
    20 CFR 402.130, 402.135 and 402.40.
8
    20 CFR 402.130.


                                             7

New regulations promulgated as a result of EFOIA became effective July 29, 1998.
They expand the modes by which the public can make a FOIA request by including
”telecommunications” instead of “telephone.” The regulations state that the public
“. . . may request a record in person or by mail or by electronic telecommunications. To
the extent practicable, and in the future, we will attempt to provide access for requests
by telephone, fax, Internet, and e-mail.”9 Again, the regulatory instructions on how to
make a request only provided a postal mailing address.

This is an opportune time for SSA to consider expanding its service to the public by
providing access for FOIA requests via telecommunications. Even though expanding
modes of access would likely result in increased workloads, SSA has demonstrated its
ability to respond successfully to such workloads. Recent SSA initiatives have been
successful in reducing backlogs, as well as the time required to process requests, in
spite of a significant increase in the number of FOIA requests (which SSA personnel
attribute to a commercial website which provides instructions on how to send a FOIA
request to SSA). If a decision is made to proceed with expanded access, SSA
regulations and operating procedures should be revised to reflect that decision.

FOIA Guide Does Not Provide Alternate Request Modes for Certain SSA Records

The message that postal mail is the only method for making at least certain types of
FOIA requests is reiterated in SSA publications. EFOIA requires each agency to
maintain reference material or a guide containing advice on requesting records from the
agency. SSA has issued a FOIA Guide on the World Wide Web informing the public
that it can inspect and copy certain SSA records at any SSA office or on SSA’s FOIA
Internet Home Page. For records not available in SSA offices or not published on the
Internet, the instructions provide that a written request for records be mailed to specific
addresses at SSA Headquarters or submitted at any SSA FO. The Guide does not
provide any alternative modes, such as telecommunications, for the public to use to
submit a FOIA request.

SSA Instructions Do Not Specify Alternate Request Modes

SSA’s Program Operations Manual System, which provides operating instructions to
SSA personnel and is available to the public, states that FOIA requests may be either
oral or written. However, there are no discreet instructions for handling oral FOIA
requests made at FOs or on SSA’s 800 telephone number.

Limited Request Modes Are Inconsistent with Agency Capability and Goals

SSA has the current capability to accept FOIA requests from the public via
telecommunications but does not do so. SSA is already an acknowledged leader in
providing service by telephone and in making information available to the public by
computer over the Internet. SSA posts on the Internet many of its consumer information
handbooks and publications, an index of its staff manuals and guidelines, and even
9
    20 CFR 402.130.


                                             8

forms whereby the public can request services, such as a Social Security number card,
a hearing, or a benefits summary. 10 Although most of these forms need to be
downloaded, completed, and mailed to SSA, some requests for services can be made
directly on-line, such as requesting a Personal Earnings and Benefit Estimate
Statement.

Limited modes of public access to services are also inconsistent with SSA’s goal to
deliver customer responsive service by emphasizing convenience of access to SSA
services. SSA has already acknowledged that it needs to provide more convenient
public access to services, and will increasingly use the Internet to meet this challenge.11

No Current Plans to Provide New Request Modes

Even though the Agency regulations indicate the public may request records by
telecommunications and that SSA will try to provide such access in the future, ODP staff
informed us that there are no current plans to provide new modes for the public to make
FOIA requests. This is likely due to the FOIA Process Review Team’s recommendation
to limit request modes and management’s apprehension that increasing modes would
result in more requests than SSA staff can effectively handle. The FOIA Process
Review Team recommended that traditional postal mail be the single entry point for
FOIA requests because accepting FOIA requests by alternative methods, such as
telephone, could cause problems with workflow priorities and create an impression of
preferential treatment. The Team did issue a caveat by indicating that the practice of
utilizing traditional mail exclusively might require an explanation to some users and
require a change in SSA regulations.

ODP management also acknowledged a tension between maximizing convenient public
service and the workload reality that SSA cannot provide timely responses to the
current level of mailed requests. Fostering alternative modes for the public to make
FOIA requests could likely result in an increase in the number of FOIA requests. Even
though SSA has no current plans to expand the modes for accepting FOIA requests,
some agencies have already begun to accept FOIA requests electronically.12




10
  Stephen M. Johnson, The Internet Changes Everything: Revolutionizing Public Participation and
Access to Government Information through the Internet, Administrative Law Review, Spring 1998,
pp. 293, 294.
11
     SSA’s Strategic Plan, 1997-2002.
12
     Stephen M. Johnson, pg. 297.


                                                  9

REQUESTS ARE GENERALLY NOT ANSWERED WITHIN STATUTORY
TIME LIMITS

SSA data indicates that its average processing time for responding to FOIA requests
exceeds statutory time limits. Once an agency is in proper receipt of a FOIA request,
the law requires it to inform the requester of the decision to grant or deny access to the
requested records within 20 business days (EFOIA increased the basic time limit from
10 business days to 20 effective October 1997). Agencies are not necessarily required
to release records within the statutory time limit, but access to releasable records
should be granted promptly thereafter. Agencies may request a 10-business day
extension by written notice to the requester.

SSA’s data bases used to control and report on FOIA requests provided the following
information. In the abbreviated 9-month reporting period for the 1997 FOIA Annual
Report (January 1, 1997, through September 30, 1997), the average processing time
from receipt in the appropriate FOIA office through disposition (SSA’s mailed notification
to the requester that the request was granted or denied in full or in part) was
122.5 calendar days for ODP, and 111.8 calendar days for OCRO. For another
9-month time frame (approximately October 1, 1997, through June 30, 1998), FY 1998
data shows an average processing time of 108.8 calendar days for ODP cases and
32 calendar days for OCRO.

OCRO processes the majority of FOIA requests. In the first 9 months of FY 1998,
OCRO completed processing 25,988 FOIA determinations and ODP completed 6,593.
OCRO’s processing time improved to the point where it did not significantly exceed the
20 business day statutory time limit. Several factors contribute to the disparity between
OCRO’s and ODP’s processing time. OCRO only processes ”simple” requests for
copies of a deceased person’s original application for a Social Security number and its
staff works full-time processing these requests. ODP staff handle all other types of
FOIA requests, including all complicated cases and cases requiring the assistance and
cooperation of FOIA coordinators and SSA staff in other components. In addition, ODP
staff works only part-time on FOIA requests. ODP staff are also responsible for
providing responses to disclosure requests made pursuant to the Privacy Act and Social
Security Act, formulating disclosure policy, and other duties.

Several Factors Contribute to Delays in Agency Responses

Based on our research and interviews with staff involved with processing and
responding to FOIA requests, the following factors contribute to delays in responding to
requests.

•	 Constant Backlogs - Constant backlogs have impeded the Agency’s ability to
   respond to new requests within the 20 business days required by law because
   requests are generally processed on a first-in, first-out basis. SSA has attempted to
   address this in part by adopting “multi-track” processing, so it can use first-in,
   first-out processing within each track; thereby, providing more flexibility in handling


                                            10

       simple requests. Even so, total FOIA backlogs in ODP and OCRO increased from
       about 9,600 to about 18,600 during FY 1998.

       SSA has shown that with sufficient resources, it can reduce backlogs and provide
       more timely responses even when faced with significantly increased workloads.
       OCRO has begun to use resources not regularly assigned to the FOIA workload to
       help reduce the backlog. By using these additional resources for short periods of
       time, OCRO was successful in reducing its share of the FOIA backlog from about
       8,100 to 4,400 during the first 6 months of FY 1999. At the same time OCRO
       reduced its average processing time from about 35 calendar days to 22. These
       improvements occurred even though requests increased to about 78,100 for this
       time period versus about 43,000 for the entire FY 1998. SSA personnel attribute
       much of the increase in FOIA requests to commercial websites that provide
       information on how to make a FOIA request to SSA.

ODP staff suggested the following factors may affect the timely processing of FOIA
requests.

•	 Controls Are Not Adequate - ODP does not maintain any manual or automated
   diaries to remind its staff of deadlines and the need to check or follow up with
   components or agencies from which assistance was sought.

•	 Reliance on Other Components - ODP is dependent on FOIA coordinators and other
   personnel in SSA’s various components to locate records, make disclosure
   recommendations, etc. Although ODP is ultimately responsible for making
   disclosure determinations and responding to requests, it has no control over the
   personnel whose cooperation is needed.

•	 Record Location -The statutory time frame is unrealistic for some requests because
   the records may be in a Federal Records Center or similar facility and need to be
   located, shipped, and/or reviewed.

•	 Complexity of Requests - The statutory time frame is unrealistic for some requests
   because they are complex, labor-intensive, and time consuming because of the
   volume and/or subject matter of the records.

SSA CAN PROVIDE THE PUBLIC WITH BETTER ESTIMATES FOR
RESPONSE TIMES

SSA’s Customer Service Pledge states that SSA will provide the public with its best
estimate needed to reply to a request and explain any delays. SSA has attempted to
implement this in the FOIA Guide it publishes by stating that it will try to handle FOIA
requests within 20 days after receipt (statutory time limit), but some requests may take
additional time. Similarly, in its 1998 FOIA Annual Report,13 SSA states that replies

13
     Appendix C, FOIA Annual Report of SSA for 1998, section IIB., pg.1.


                                                                11

may take 1 month or longer. SSA can provide the public with a better estimate by
providing the public with average processing time for both “simple“ requests and all
others, or at least referring the public to the median processing time for various types of
requests now included in SSA’s FOIA annual report.14

PREVIOUS AND CURRENT ANNUAL REPORTS LACKED BOTH
IMPORTANT AND ACCURATE DATA

Prior to the 1998 FOIA Annual Report, SSA’s annual report to Congress was generally
in compliance with statutory criteria but failed to provide important data such as
backlogs and average processing time. Also, certain data included in the annual
reports was misleading since it implied SSA had no problems in compliance with time
limitations. In addition, the data did not capture all FOIA work done by the Agency,
i.e., work done in FO’s was not reported.

We reviewed SSA’s 1997 Annual Report (see Appendix C) which was issued prior to
the effective date of the EFOIA revisions concerning annual report requirements, and
found it to be in compliance with the six specific data categories which were then
required by the statute. However, the seventh and last data category required by the
statute called for “. . . such information as indicates efforts to administer fully this
section.” There was no data provided on the number of requests received, pending,
average processing time, or number of requests that were not answered within the
statutory time frame. The EFOIA beginning with the 1998 Annual Report now requires
most of this data.

A section of the 1997 Annual Report titled “Compliance with Time Limitations” is
misleading because it did not address SSA’s performance in meeting the statutory time
limits for providing FOIA determinations to requesters. Instead, SSA provided data on
items such as the number of times it was necessary to seek an extension of the time
limit. SSA reported “zero” instances. We believe this was misleading because it implies
that SSA never needed an extension because determinations were made timely. This
is not the case. SSA reported “zero” extension requests simply because extensions
were not sought. By way of explanation, ODP staff advised us that extensions were not
sought because the public never appealed the lack of a timely response and it would
have been a waste of time to request extensions when there was no repercussion for
not meeting the time limit for responses. However, the fact that SSA did not seek
extensions had no reflection on “compliance with time limitations,” as it regards timely
responses.

The 1997 Annual Report also lacked accuracy because it did not fully reflect all FOIA
related work. Most FOs we surveyed responded that they handled FOIA requests
directly when feasible, but approximately 61 percent of Field Managers we questioned
did not record it as a discrete work item or report it for annual reporting purposes.


14
     Ibid., section VII, pp. 5, 6.


                                            12

Although not subject to our audit work, we offer a few observations on the 1998 FOIA
Annual Report (see Appendix D) relevant to our analysis of previous annual reports.
The 1998 report provided more information than previous reports, as required by
EFOIA. Data was provided on the number of requests received, processed, pending,
and median number of days regarding processing and pending. The report also
acknowledged that the data is not complete and accurate in that it does not fully reflect
all FOIA-related work because processing statistics were not kept by SSA’s 1,500 FOs
and various other components with limited FOIA responsibilities.15 However, the report
still does not indicate the extent to which SSA processes requests within statutory time
limits.

FOIA READING ROOMS NEED IMPROVEMENT

We found that SSA has complied with the EFOIA requirement to provide the public with
an electronic reading room on its World Wide Web site, but, in general, does not provide
adequate reading rooms in its FOs. SSA regulations16 state that certain materials
(administrative staff manuals, laws, regulations, rulings, etc.) are available or will be
made available for inspection and copying at FOs.

Via telephone, we interviewed the 67 FO managers in our sample and found that
82 percent believed their office did not maintain a discrete hard copy library of some
required reading room materials. Most managers told us that they have staff manuals
such as the Program Operations Manual Systems (hard copy or CD-ROM) readily
available and that other reading room materials will be made available upon request.
However, none of the offices we contacted had a computer workstation available for the
public to access reading room materials on-line, including those materials required to be
placed in the electronic reading room. Less than half (46 percent) of the FOs we
contacted currently had Internet or Intranet access. Of those with access, none of the
managers had ever provided a requester with a computer to use to inspect and/or copy
material available in SSA’s electronic reading room on the World Wide Web. Even
those managers with on-line access were usually not familiar with SSA’s on-line FOIA
material and, therefore, did not advise the public of its availability.

We questioned these same FO managers to determine what advice is provided to a
requester at the FO and whether FOIA-related work is recorded, tracked, and reported.
We found that, in general, FOs: try to directly handle FOIA requests (90 percent); give
similar advice regardless of how the request was made (in person, by phone, mail, etc.
81 percent); and do not always track or report FOIA requests handled in the office
(61 percent).




15                   nd
  Ibid., section VII, 2 paragraph, pg. 6.
16
   20 CFR 402.50 and 402.55.


                                            13

The results of our interviews with FO managers indicated that:

•	 Ninety percent responded that when a person contacts a FO with a FOIA request,
   the FO tries to handle it directly. The managers advised us that they would
   generally disclose records such as regulations or policies and procedures in staff
   manuals. Requests for records pertaining to individuals other than the requester
   would be handled on a case-by-case basis. Ten percent responded that they never
   get any FOIA requests or do not handle any locally because all requests are
   forwarded to the regional office.

•	 Eighty-one percent responded that the advice given to a FOIA requester would not
   differ regardless of whether the request was made in person, by traditional or
   electronic mail, or over the phone. Nineteen percent would either never accept a
   request by phone or would require that a request be submitted in writing.

•	 Eighty-two percent responded that the FO provides some basic physical space
   where a FOIA requester can sit down (such as an empty cubicle or conference
   room) and review limited reading room records. Nine percent responded that they
   did not maintain any physical space, equipment and/or records available to
   constitute a public reading room, and 9 percent responded that they maintained a
   discrete physical space and a “library” of records for the public in a reading room.

•	 Fifty-four percent responded that their offices have neither Internet nor Intranet
   access and, therefore, cannot access on-line information. Of those with on-line
   access, only one manager indicated familiarity with the fact that SSA’s Web Site
   contained an EFOIA reading room. There was no instance in which a computer with
   Internet or Intranet was made available for the public to review or copy records
   available in SSA’s “electronic” reading room.

•	 Sixty-one percent of FO managers indicate that their offices do not record FOIA
   requests as a discrete workload nor report it as such. The work that is done is not
   reflected in SSA’s annual report on FOIA activities. SSA’s 1997 Annual Report
   shows that in only 5 of SSA’s 10 regions were any FOIA requests reported as having
   been handled at a FO (without being referred to ODP or OCRO).




                                           14

  CONCLUSION AND RECOMMENDATIONS


SSA has taken numerous initiatives intended to improve its management of FOIA
activities, such as implementing “multi-track” processing of requests and creating and
maintaining FOIA information on-line so that the public has access to FOIA information
from SSA’s Web page. However, further improvements are necessary to improve
service to the public. We found that the modes by which the public may make a FOIA
request are limited; requests have generally not been answered within statutory time
limits; the annual reports to Congress lack important, complete, and accurate data
necessary to fully reflect SSA’s management of its FOIA activities; advice to the public
regarding estimated reply times can be improved; and FOIA reading room records are
not readily available at SSA’s FOs.

We recommend that SSA take the following actions:

1. 	 Expand the modes by which the public may make a FOIA request and make
     commensurate changes in its regulations and other relevant publications. SSA
     should consider accepting requests made over the phone or computer and provide
     appropriate instruction to its staff and the public on the use of these modes. SSA
     should consider providing a request form on its World Wide Web site which can be
     used by the public to complete and transmit to SSA by mail or telecommunications.

2. 	 Make further efforts to comply with the legal requirement to provide a determination
     reply to a FOIA request within 20 business days. Some options to consider are:
     (1) continued periodic use of additional staff to significantly reduce the current
     pending workload, so that new requests can be more quickly addressed under the
     “first-in, first-out” method, (2) remind FOIA coordinators and SSA management that
     they need to monitor the timeliness of FOIA requests submitted to their components,
     and (3) improve controls in SSA’s case control systems in ODP and OCRO, so that
     staff are reminded of important processing dates.

3. 	 Provide the public with its best estimate of the time SSA takes to provide a
     determination in response to a FOIA request. Estimates would be most informative
     if provided in the FOIA Guide and annual report; and the estimate referred to
     average processing time and type of request. This could easily be accommodated
     by referring to the median times now included in the annual FOIA report.

4. 	 Provide additional and more accurate data in the annual report to the Attorney
     General on its effort to fully administer FOIA. SSA needs to: (1) instruct all its
     reporting components as to what constitutes a FOIA request, how requests should
     be handled, and how requests should be tracked and counted for the annual report;



                                           15

   and (2) consider revising its report to clearly show its data vis-à-vis the statutory time
   frames to provide the most forthright data on “compliance with time limits.”

5. Provide a workstation with on-line computer access to the SSA FOIA Web page at
   every FO whereby the public can access, inspect, and copy FOIA reading room
   records. SSA needs to provide training to FO staff, so they are familiar with SSA’s
   FOIA records that are available on-line and can direct the public in the use of the
   technology, either at the SSA office or an off-site location.

AGENCY COMMENTS

SSA agreed with our recommendations to make further efforts to comply with the legal
requirements to provide a determination reply to a FOIA request within 20 business
days, and to provide the public with its best estimate of the time it takes to provide a
determination in response to a FOIA request.

SSA disagreed with our recommendation to expand the modes by which the public may
make a FOIA request, at least until such time as it can provide an appropriate level of
customer service. SSA also disagreed with our recommendation to provide additional
and more accurate data in its annual report on FOIA activities.

SSA will not decide whether to provide a workstation with on-line computer access to
the public for FOIA reading room records until it conducts and completes an
assessment of relevant issues.

OIG RESPONSE

We continue to believe that SSA should expand the modes by which the public may
make a FOIA request. We agree it may not be prudent to offer such options until it is
able to provide an appropriate level of customer service. However, current inability to
provide adequate service with expanded modes should not equate with a decision to
not pursue expanded modes in the future. Alternative modes would be consonant with
SSA's broad strategic goal "to deliver customer-responsive world class service" and
strategic objective of increasing the range of services available over the phone or
electronically.

Also, we continue to believe that SSA would improve its annual reporting of FOIA
activities by providing additional and more accurate data. Respective examples would
be reporting the extent to which it provides replies within statutory time limits, and more
accurately capturing FOIA-related work performed by the Agency.

We believe SSA's decision to study the issues regarding whether to provide on-line
access to the public in its FOs for FOIA reading room records is reasonable.




                                             16

APPENDICES

                            APPENDIX A



S S A’ S C O M M E N T S

                                                                               APPENDIX B



           S AM P L I N G M E T H O D O L O G Y 


We sampled 68 of the 137 field offices (FO) contained in the frame provided to us by
the Social Security Administration’s (SSA) Office of Workforce Analysis (OWA). One of
the offices in our population did not meet our sampling criteria. We used a random start
to select the first office and then systematically selected every other office. For the
selected offices, we developed a questionnaire and addressed the question to a FO
manager. The primary sampling unit is the FO and each question from the
questionnaire is a secondary sampling unit.

The source of the primary sampling units is the District Office Multi-Purpose Sample.
The frame received from OWA represented 10 percent of SSA’s FOs. The frame is a
stratified, cluster sample. It is stratified by SSA region, and is clustered or grouped by
FOs. The sample consists of 10 distinct pairs of FO clusters; 1 pair per region. Each
pair of clusters is similar to the next pair relative to the number of FO personnel, the
number of offices, and the broadest possible representation of areas. Within each
cluster, the goal is to have heterogeneous offices, so as to have a variety of office types
(urban, suburban, and rural; large and small, etc.).

To form 1 of the 10 multi-purpose samples, 1 pair of clusters was selected at random for
each of the 10 regions. A random number between 1 and 10 was selected (3). Thus,
cluster pair 3 was selected for all 10 regions.

Although our subsample of the OWA 10 percent sample is projectible at the national
level, we did not project the questionnaire results nationwide.
                             APPENDIX C



FREEDOM OF INFORMATION ACT REPORT

        TO CONGRESS 1997

                             APPENDIX D



FREEDOM OF INFORMATION ACT REPORT

   TO THE ATTORNEY GENERAL 1998

                                                                               APPENDIX E



          MAJOR REPORT CONTRIBUTORS


Office of the Inspector General

  Shirley E. Todd, Acting Director, Management Audits Division

  Carl Markowitz, Audit Manager

  Jerry Hockstein, Senior Program Analyst

  Maryann Braycich, Program Analyst

  Cheryl Robinson, Writer-Editor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-98-01027.
                            APPENDIX F



SSA ORGANIZATIONAL CHART

